No.
In The

^xx^fxttme OInurt af
Jonathan S. Metcalf,
Petitioner,
V.

Michael Fitzgerald, et al..
Respondents.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 15th day of October 2019, caused three copies of the Petition
for a Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Timothy J. Holzman, Esq.
Morrison Mahoney LLP
One Constitution Plaza
10th Floor
Hartford, CT 06103
(860) 616-4441
tholzman@morrisonmahoney.com

Joshua A. Yahwak, Esq.
Musco & lassogna
555 Long Wharf Drive
10th Floor
New Haven, CT 06511
(203) 782-4122
joshua.yahwak@m-ilaw.com

Counsel for Myles Alderman, Jr. and
Alderman & Alderman, LLC

Counsel for Ion Bank and Michael
Fitzgerald

Adam G. Unikowsky

